NOTICE
The petitioner on this day, August 28, 2020, has placed in first class mail a corrected copy of the above
pleading to the Clerk of the Supreme Court of the United States and to Herbert Slatery III, the Attorney
General of the State of Tennessee a true and correct copy of the above Petition for Writ of Certiorari at
the below listed addresses.

P

^JLdc^

LarryBurt Sexton pro se

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001

Herbert Slatery III
Office of the Attorney General
500 Charlotte Ave.
P.O. Box 20207
Nashville, Tn. 37202-0207

15

